     STATEMENT OF GREGORY H. FRIEDMAN
            INSPECTOR GENERAL
         U.S. DEPARTMENT OF ENERGY




                 BEFORE THE
        U.S. HOUSE OF REPRESENTATIVES
     COMMITTEE ON ENERGY AND COMMERCE
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS




                              FOR RELEASE ON DELIVERY
                                        Thursday, May 5, 2005
Good afternoon Mr. Chairman and members of the Subcommittee. I am pleased to be
here to respond to your request to testify on the results of our work at the Los Alamos
National Laboratory, one of the Department of Energy’s most prominent facilities.


In February 2003, I testified before this Subcommittee on procurement and property
management at Los Alamos. My testimony addressed weaknesses in controls over:
property accountability; procurement authority, including purchase cards; and, security of
computers.


At the Subcommittee’s hearing in May 2003, I testified that the Laboratory had not given
adequate attention to its business operations. Specifically, my testimony focused on
financial management weaknesses at Los Alamos. I pointed out that the Office of
Inspector General had questioned the allowability of certain costs that the Laboratory
claimed between Fiscal Years 2000 and 2002, and that weak controls in Los Alamos’
audit function; payroll and travel approval process; and, financial systems contributed to
an environment where questionable costs could be incurred and claimed.


Since the 2003 hearings, the Office of Inspector General has continued to examine
management practices at Los Alamos. In a series of reviews, some of which I will
highlight today, we followed-up on a number of previously identified weaknesses. In
some cases, the Laboratory had taken appropriate corrective actions. However, in other
cases, our reports have shown that more work is needed to correct problem areas.


ENHANCEMENTS OF INTERNAL CONTROLS


In 2004, the Office of Inspector General performed a follow-up review to determine
whether the Laboratory had conducted a thorough analysis of its purchase card program
and had initiated corrective action to resolve previously reported weaknesses. In our
report, Los Alamos National Laboratory’s Purchase Card Program Corrective Actions
(DOE/IG-0644, April 2004), we concluded that Los Alamos had made improvements in




                                             1
the management of its purchase card program. Some positive steps that the Laboratory
implemented included:


    •   Reducing the number of purchase cards in circulation from 800 to 550;
    •   Subjecting purchase card transactions to multiple reviews and electronically
        reconciling to supporting documents;
    •   Prohibiting cardholders from approving their own transactions; and,
    •   Making approving officials responsible for fewer cardholders, permitting them to
        provide additional scrutiny of transactions.


Although the Laboratory had clearly made progress, we identified certain opportunities to
further reduce risk of card misuse. For example, we pointed out that Los Alamos could
clarify guidance concerning unauthorized items, automate data analysis techniques, and
enhance periodic reviews of cardholder activities.


AREAS REQUIRING ADDITIONAL IMPROVEMENT


Our recent work disclosed continuing problems in several key areas of Laboratory
management. Specifically, we issued a series of reports that pointed to needed
improvements in the areas of project management and security. Further, we identified
continuing problems in the general area of contract administration, problems for which
Los Alamos, the University of California and the Department have a shared
responsibility.

                                    Project Management


Construction and operating projects are essential to accomplishing the Department's
missions. Numerous multi- million dollar projects support the scientific and
technologically-complex work of the Department, and many of the projects are unique in
the world. Prior reviews by my office and others revealed that many of these projects,
including some at Los Alamos, have been adversely affected by cost overruns, schedule



                                              2
slippages, and other management problems. Based on our recent reviews at Los Alamos,
we concluded that improved project management discipline and structure are needed to
effectively manage the costs, schedules, and scope of key initiatives.


Our audit report on Dual Axis Radiographic Hydrodynamic Test Facility (DOE/IG-0599,
May 2003) found that Los Alamos and the National Nuclear Security Administration had
not made full use of available project management tools to complete the facility. As a
result, the Dual Axis Radiographic Hydrodynamic Test Facility (DARHT) would not be
completed before June 2004, 15 months behind schedule. The DARHT facility at Los
Alamos will be the nation’s first test facility capable of providing three-dimensional x-ray
photographic diagnostic information on the behavior of weapon parts and the effects
aging has on a nuclear weapon. Absent underground testing, the facility will play a
critical role in certifying that the weapons in the stockpile are safe and reliable. During
the review, we found that the Laboratory had changed work scope, eliminated key
elements, and shifted critical activities to other programs. Los Alamos had significantly
underestimated the cost of various work elements of the project, as well as funds needed
for contingency. The Laboratory’s ability to complete the project on schedule and within
budget was adversely affected, potentially impeding the Department’s Stockpile
Stewardship Program.


The audit report on Stabilization of Nuclear Materials at Los Alamos National
Laboratory (DOE/IG-0659, August 2004) showed that, although the Laboratory had
made some progress in stabilizing the most hazardous fissionable materials, it had not
accelerated stabilization to the level anticipated. We found that the Laboratory would not
stabilize materials until 2010, well beyond the original projected completion date of
2002. In fact, Los Alamos missed interim milestones and project tasks, which could
delay stabilization beyond 2010. We found that, among other things, the Laboratory had
not made full use of available tools to effectively manage the project. For example, many
of Los Alamos’ work packages, whic h were intended to provide the detailed guidance for
project completion, often lacked milestones and clearly defined statements of work.
Managers, therefore, lacked an objective basis to assess and report on the project’s status.



                                              3
By extending the schedule until 2010, the Department will incur an estimated $78 million
in added costs. Additionally, radioactive materials may continue to deteriorate and
negatively impact the safety and health of workers.


Our audit report on Transuranic Waste Management at Los Alamos National Laboratory,
(DOE/IG-0673, February 2005) noted that the Department will not meet its commitment
for removing transuranic waste from Los Alamos and shipping it to the Waste Isolation
Pilot Plant. For example, based on projections at the time of our review, the Department
was unlikely to complete removal of the legacy transuranic waste before 2014—four
years beyond the commitment date. We concluded that Los Alamos’ rapid scale-up of
waste operations resulted in operational breakdowns. Specifically, operating procedures
failed when the Laboratory attempted to increase its volume of shipments to the Waste
Isolation Pilot Plant. As a result, the Laboratory had to revise its procedures and retrain
personnel on waste processing. The lack of progress in disposing of the waste prevented
Los Alamos from expeditiously reducing the health and safety risk posed by the
continued above- ground storage of transuranic waste. In addition, the total cost of
completing the waste disposition project could increase by over $70 million.

                                          Security


One of the Department’s national security objectives is ensuring that nuclear weapons,
materials, facilities, and information are secure through effective safeguards and security
policy, implementation, and oversight. Since the events of September 11, 2001, this
objective has taken on added importance and required the Department and its nuclear
weapons laboratories to reassess and strengthen their security posture. However, our
recent reviews at Los Alamos, one of the Department’s most sensitive sites, disclosed
that weaknesses exist in the protection of the Department’s critical resources and
infrastructure. For example:


An inspection on Security and Other Issues Related to Out-Processing of Employees at
Los Alamos National Laboratory (DOE/IG-0677, February 2005) concluded that the



                                              4
Laboratory’s process did not provide assurance that terminating employees: (1) turned in
security badges; (2) completed the required Security Termination Statement; or (3) had
their security clearances and access authorizations to classified matter and/or special
nuclear material terminated in a timely manner. We found that Laboratory out-
processing procedures were not followed for more than 40 percent of the 305 cleared and
uncleared terminating employees included in our judgmental sample. We identified 21
employees who retained their security clearances in the Department’s data base after
terminating employment at the Laboratory, 3 of which remained active in the data base
for over a year. By not following the Laboratory’s out-processing procedures, there was
no assurance that terminating employees fulfilled their responsibilities to, among other
things, account for classified holdings. Subsequent to completion of our fieldwork, the
Laboratory revised its out-processing procedures to address concerns we raised during
our inspection.


In 2004, we completed an inspection on Internal Controls over Personal Computers at
Los Alamos National Laboratory, (DOE/IG-0656, August 2004), which identified
continuing weaknesses over classified and unclassified computers at the Laboratory.
Specifically, we found that the Laboratory’s listing of Sensitive Compartmented
Information Facility classified desktop and laptop computers was not accurate. We also
found that a number of classified desktop computers were not entered into the property
inventory, and some computers were not assigned property numbers. Finally, we
determined that the Laboratory’s Office of Security Inquiries had not been notified about
a missing component of a computer system accredited for classified use. While there was
no evidence that the missing component contained classified information, a security
inquiry had not been conducted because personnel did not follow Laboratory policy
requiring such notification. These weaknesses undermined confidence in the
Laboratory’s ability to assure that computers were controlled in accordance with existing
property management and security requirements and were adequately safeguarded from
loss or theft.




                                             5
                                 Contract Administration


We have also identified contract administration problems on the part of both Los Alamos
and the Department. Appropriate contract administration is needed to ensure that
contractor operations are effective and efficient, and that contractors’ expenses are
allowable. Recent reviews by my office have identified areas where Los Alamos and the
Department have not provided effective administration over subcontractor costs, business
controls, and home office expenses paid to the University of California to support the
Laboratory.


Our audit on Management Controls over Subcontract Administration at the National
Security Laboratories, (OAS-M-04-06, August 2004) noted that during Fiscal Years 2001
and 2002, Los Alamos, as well as Lawrence Livermore and Sandia National
Laboratories, did not always effectively manage certain aspects of the subcontracting
process. Los Alamos and its counterparts are expected to ensure that Federal funds
entrusted to their care are expended appropriately, that questioned costs are resolved in a
timely manner, and that subcontracts are closed when all actions are complete. During
the subject audit, we found that Los Alamos had not provided adequate audit coverage to
determine whether costs were allowable for 93 active subcontracts with an aggregate
value of $1.3 billion. Furthermore, 11 completed subcontracts, valued at $68 million, had
not been subjected to close-out audits at the time of our review. We also noted that
action to determine the allowability of over $9 million in questioned subcontract costs
remained incomplete. Adequate audit coverage was lacking because the Laboratory had
not provided sufficient resources to the audit function and had not established formal
procedures and training regarding cost resolution. My office is currently reviewing the
Laboratory’s actions to improve audit coverage of subcontractor costs.


Regarding Los Alamos’ administration of business controls, in a case that had much
public and Congressional interest, we completed a joint investigation with the Federal
Bureau of Investigation and determined that two former Los Alamos National Laboratory
employees used Government funds to purchase items for their personal use, including



                                             6
television sets, automobile parts, and barbeque grills. A Federal grand jury returned a 28-
count indictment for fraud, conspiracy, theft of property, and making false statements to
investigators. One subject of the investigation was sentenced to over a year of
confinement and 2 years probation. The second subject was sentenced to 6 months
confinement, 6 months of electronically monitored home detention, 2 years and six
months probation, and a $30,000 fine. The former employees were also ordered to pay
nearly $40,000 in restitution.


In addition, we determined that improvements were needed in the Department’s
administration of its contract with the University of California, which operates Los
Alamos, Lawrence Livermore and Lawrence Berkeley National Laboratories. Under its
contractual arrangements with the University, the Department committed to pay the
University for certain corporate activities performed in support of the laboratories. Our
audit, Department of Energy Contractor Home Office Expenses (DOE/IG-0676, February
2005), revealed that the Department: (1) will incur about $21 million in unnecessary
expenses over the 5-year life of the contracts with the University because it used an
incorrect allocation base to calculate the fixed payments for home office expenses; (2)
inappropriately agreed to provide about $8 million for a percentage of the University’s
operational costs that did not benefit Government- funded activities; and, (3) reimbursed
about $880,000 for erroneously claimed expenses and for unallowable expenses such as
costs for student recruitment.


CONCLUSION


Although the Los Alamos National Laboratory has acted to improve controls in a number
of areas, our recent work indicates that continued emphasis is needed on improving key
management processes.


As you are aware, the Department initiated procurement actions to re-compete the
contract to operate Los Alamos. Regardless of the eventual outcome, the Department
needs to strengthen its overall contract administration strategies and methodologies at



                                             7
Los Alamos. While this must be a multi- faceted effort, there are six integral principles
which we believe are most important. The Department and the National Nuclear Security
Administration should:


   •   Ensure that its contractors establish robust, effective, and reliable business
       systems;
   •   Promote contractor governance models that adequately protect the Department’s
       interests;
   •   Foster a culture where contractors fully understand and honor the special
       responsibility associated with managing taxpayer-funded Federal facilities;
   •   Promote an environment where both Federal and contractor employee concerns
       can be raised and addressed without fear of retaliation;
   •   Develop quantifiable, outcome-oriented metrics and maintain a system to track
       critical aspects of contractor performance; and,
   •   Rate and reward contractors commensurate with their accomplishments.


To assist the Department in addressing the weaknesses discussed today and measure
progress towards correcting them, my office will continue to aggressively review the
situation at the Los Alamos National Laboratory and other contractor-operated facilities.


Mr. Chairman and Members of the Subcommittee, this concludes my statement. I will be
pleased to answer any questions.




                                             8
